                        U.S. Department of Agriculture

                           Office of Inspector General
                            Financial & IT Operations




   Agreed-Upon Procedures Report

 Agreed-Upon Procedures: Retirement, Health
         Benefits, and Life Insurance
Withholdings/Contributions and Supplemental
Semiannual Headcount Report Submitted to the
   Office of Personnel Management (OPM)




                              Report No. 11401-29-FM
                                     September 2008
                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250
September 18, 2008


The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW., Room 6400
Washington, D.C. 20415-0001

Subject:       Agreed-Upon Procedures: Retirement, Health Benefits, and Life Insurance
               Withholdings/Contributions and Supplemental Semiannual Headcount Report
               Submitted to the U.S. Office of Personnel Management (OPM)

Dear Mr. McFarland:

This report presents the results of the Agreed-Upon Procedures performed on the subject
information processed by the U.S. Department of Agriculture’s (USDA) Office of the Chief
Financial Officer/National Finance Center as of August 31, 2008.

Our review included information for the following agencies listed in Appendix A of the Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, dated September 4, 2007: USDA, Department of Commerce, Department of Justice,
Department of the Treasury, Department of Homeland Security, Department of Housing and
Urban Development, Agency for International Development, Department of Labor, and Small
Business Administration.

This review was performed, as required by OMB, and in accordance with the Statements of
Standards for Attestation Engagements established by the American Institute of Certified Public
Accountants.

If you have any questions, please contact me at (202) 720-6945, or have a member of your staff
contact Jane Bannon, Director, Administration and Finance Division, at (202) 720-1918.

Sincerely,


/s/ Tracy LaPoint (for)

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

cc:
Mark A. Reger, Chief Financial Officer, OPM
Executive Summary
Agreed-Upon Procedures: Retirement, Health Benefits, and Life Insurance
Withholdings/Contributions and Supplemental Semiannual Headcount Report
Submitted to the Office of Personnel Management (OPM) (Audit Report No. 11401-29-
FM)

Results in Brief              This report presents the results of the Agreed-Upon Procedures (AUP)
                              performed on the retirement, health benefits, and life insurance
                              withholdings/contributions and supplemental semiannual headcount reports
                              submitted to the U.S. Office of Personnel Management (OPM) by the U.S.
                              Department of Agriculture’s (USDA) Office of the Chief Financial
                              Officer/National Finance Center (OCFO/NFC) as of August 31, 2008.1

                              Our objective was to perform the AUPs detailed in the Office of Management
                              and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
                              Financial Statements, dated September 4, 2007, in order to assist OPM in
                              assessing the reasonableness of retirement, health, and life insurance
                              withholdings/contributions and employee data submitted by OCFO/NFC for the
                              following agencies listed in OMB Bulletin No. 07-04, Appendix A: USDA,
                              Department of Commerce, Department of Justice, Department of the Treasury,
                              Department of Homeland Security, Department of Housing and Urban
                              Development, Agency for International Development, Department of Labor,
                              and Small Business Administration.

                              There were no differences that exceeded the allowable thresholds noted during
                              our review; however, we identified one error for benefits entered into the system
                              by the Departments’ personnel officers. We were also unable to verify 35
                              personnel documents tested in steps 2, 3, and 4 because the Departments were
                              unable to locate the documents requested. However, we performed the
                              calculations for salary, retirement, life, and health insurance in these cases to
                              ensure that the OCFO/NFC systems were accurate. We noted no exceptions.
                              Details are provided in exhibit A.




1
  We selected our samples from pay period 17 (August 19 – September 1, 2007), pay period 24 (November 25 – December 8, 2007), pay period 04
(February 17 – March 1, 2007), and the OPM 1523, Supplemental Semiannual Headcount Report, as of September 13, 2007, and March 13, 2007.

USDA/OIG-A/11401-29-FM                                                                                                           Page i
Abbreviations Used in This Report


AUP               Agreed-Upon Procedures
CFO               Chief Financial Officer
FEGLI             Federal Employees’ Group Life Insurance
FEHB              Federal Employees’ Health Benefits
IG                Inspector General
NFC               National Finance Center
OCFO              Office of the Chief Financial Officer
OMB               Office of Management and Budget
OPF               Official Personnel Files
OPM               Office of Personnel Management
PP                pay period
RITS              Retirement and Insurance Transfer System
SF                standard form
USDA              U.S. Department of Agriculture




USDA/OIG-A/11401-29-FM                                       Page ii
Table of Contents

Executive Summary ................................................................................................................................ i 

Abbreviations Used in This Report ...................................................................................................... ii 

Report of the Office of Inspector General ........................................................................................... 1 

Exhibit A – Procedures Performed and Results ................................................................................. 3 




USDA/OIG-A/11401-29-FM                                                                                                                 Page iii
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




Report of the Office of Inspector General

TO:    Honorable Patrick E. McFarland
       Inspector General
       U.S. Office of Personnel Management

We have performed the procedures described in exhibit A, which were agreed to by the Inspector
General (IG) and Chief Financial Officer (CFO) of the U.S. Office of Personnel Management
(OPM), solely to assist with respect to the employee withholdings and employer contributions
reported by the U.S. Department of Agriculture’s (USDA) Office of the Chief Financial
Officer/National Finance Center (OCFO/NFC) on the standard form 2812, Report of
Withholdings and Contributions for Health Benefits, Life Insurance, and Retirement, for the pay
periods (PP) ending September 1, 2007 (PP 17), December 8, 2007 (PP 24), and March 1, 2008
(PP 4), respectively, and OPM 1523, Supplemental Semiannual Headcount Report, as of
September 13, 2007, and March 13, 2008. The reports submitted by OCFO/NFC included
information for the following entities listed in Appendix A of the Office of Management and
Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, dated
September 4, 2007: USDA, Department of Commerce, Department of Justice, Department of the
Treasury, Department of Homeland Security, Department of Housing and Urban Development,
Agency for International Development, Department of Labor, and Small Business
Administration.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with the
standards established by the American Institute of Certified Public Accountants. The sufficiency
of the procedures is solely the responsibility of the IG and the CFO of OPM. Consequently, we
make no representations regarding the sufficiency of the procedures described either for the
purpose for which this report has been requested or for any other purpose. The results of the
engagement are detailed in exhibit A.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
and retirement, and the headcount reports prepared by OCFO/NFC. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you.




USDA/OIG-A/11401-29-FM                                                                          Page 1
This report is intended solely for the use of the IG and CFO of OPM and should not be used by
those who have not agreed to the procedures and taken responsibility for the sufficiency of the
procedures for their purposes.


/s/ Tracy LaPoint (for)

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

August 31, 2008

cc:
Mark A. Reger, Chief Financial Officer, OPM




USDA/OIG-A/11401-29-FM                                                                      Page 2
Exhibit A – Procedures Performed and Results
1.   Compared the Retirement and Insurance Transfer System (RITS) submission data with payroll
     information by performing the following procedures.

     a. Recalculated the mathematical accuracy of the payroll information. For cross-servicing
        agencies, if the internal controls were the same for all agencies serviced, it was only
        necessary to perform this procedure for one agency.

     b. Recalculated the mathematical accuracy of each RITS submission for the payroll information
        selected in step 1.a.

     c. Compared the employee withholding information at the aggregate level for retirement, health
        benefits, and life insurance (as adjusted for reconciling items) shown on the payroll
        information obtained in step 1.a to the related amounts shown on the RITS submission for the
        corresponding period.

     Report any differences for retirement, health benefits, and life insurance that are over
     1 percent of the aggregate amount reported for each of the three categories. Obtain from
     management a management official name, an explanation, telephone number, and an email
     address for the differences above the one percent threshold.

     Results

     There were no differences over 1 percent.

2.   a. Randomly selected a total of 25 individuals who were on the payroll system for all three of
        the RITS submissions selected and met all the following criteria.

        •      Covered by the Civil Service Retirement System or the Federal Employees’ Retirement
               System;
        •      enrolled in the Federal Employees’ Health Benefits (FEHB) Program;
        •      covered by Basic Life Insurance; and
        •      covered by at least one Federal Employees’ Group Life Insurance (FEGLI) optional
               coverage (Option A, B, or C).

     b. Obtained the following documents, either in electronic or hard copy format, from the Official
        Personnel File (OPF) for each individual selected in step 2.a. Hard copies could be originals
        or certified copies.

        •      All Notifications of Personnel Actions (standard form (SF) 50) covering the pay periods
               in the RITS submission chosen.

        •The Health Benefits Election Form (SF-2809) covering the pay periods in the RITS
         submission chosen or, if applicable, requested that the agency personnel office obtain a
         report from the agency’s automated system that allows participants to
USDA/OIG-A/11401-29-FM                                                                   Page 3
Exhibit A – Procedures Performed and Results
              change benefits (e.g., Employee Express) for any health benefits transaction in that
              system for the individuals selected in step 2.a. Compared date of transaction with date on
              the certified copy of the SF-2809 or the agency’s automated system report requested.
              Confirmed that the health benefits information to be used in step 2.f covers the pay
              periods in the RITS submissions chosen (note: a new SF-2809 was needed only if an
              employee was changing health benefit plans; therefore, the form could be many years
              old).

       •      The Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
              submission chosen (note: a new SF-2817 was needed only if an employee was changing
              coverage; therefore, the form could be many years old).

    Results

    The following 24 documents were not located by the personnel officers; however, we performed
    the calculations for salary, retirement, life, and health insurance in these cases to ensure that the
    Office of the Chief Financial Officer/National Finance Center systems were calculating
    accurately.

         DEPARTMENT                                                FEHB         FEGLI
         Agriculture                                                 1            1
         Agency for International Development                        4             5
         Justice                                                     1            1
         Homeland Security                                           1            3
         Small Business Administration                               2             1
         Commerce                                                    1            1
         Treasury                                                    2            0
         TOTAL                                                      12            12

    c. Compared the base salary used for payroll purposes and upon which withholdings and
       contributions generally are based with the base salary reflected on the employee’s
       SF-50. Report any differences and obtain management’s explanation of the differences.

    Results

    No exceptions noted.

    d. For retirement, compared the plan code on the employee’s SF-50 to the plan code used in the
       payroll system. Report any differences and obtain management’s explanation of the
       differences.

    Results

    No exceptions noted.

USDA/OIG-A/11401-29-FM                                                                          Page 4
Exhibit A – Procedures Performed and Results

    e. Calculated the retirement amount to be withheld and contributed for the plan code from the
       employee’s SF-50, based upon the official withholding and contribution rates required by
       law. Compared to actual amounts withheld and contributed. Report any differences and
       obtain management’s explanation of the differences.

    Results

    No exceptions noted.

    f. For health benefits, compared the employee withholdings and agency contributions with the
       official subscription rates issued by the Office of Personnel Management (OPM) for the plan
       and option elected by the employees, as documented by a SF-2809 in the employee’s OPF or
       automated system that allows the participant to change benefits. Report any differences and
       obtain management’s explanation of the differences.

    Results

    No exceptions noted.

    g. For life insurance, confirmed that Basic Life Insurance was elected by the employees, as
       documented by SF-2817, in his/her OPF. Report any differences and obtain management’s
       explanation of the differences.

    Results

    No exceptions noted.

    h. Calculated the withholding and contribution amounts for Basic Life Insurance using the
       following.

       •      For employee withholdings: Rounded the employee’s annual base salary up to the nearest
              thousand dollars and add $2,000. Divided this total by 1,000 and multiplied the rate
              required by law. The life insurance rates were found in the FEGLI Program Booklet on
              OPM’s website.

       •      For agency contributions: Divided the employee withholdings calculated above by two.

       •      Compared to actual amounts withheld and contributed. Report any differences and obtain
              management’s explanation of the differences.

    Results

    No exceptions noted.

USDA/OIG-A/11401-29-FM                                                                      Page 5
Exhibit A – Procedures Performed and Results

    i. Also, for life insurance, compared optional coverage elected as documented by an
       SF-2817 in the employee’s OPF with optional coverage documented in the payroll system.
       Report any differences and obtain management’s explanation of the differences.

    Results

    We found one FEGLI code that did not match the optional coverage elected on the SF-2817 in
    the Department of Homeland Security. Homeland Security management stated that an
    adjustment by the employee was not processed when received by the personnel officer; therefore,
    the coverage originally elected was never changed from BASIC plus Option A to BASIC only.

    j. Calculated the withholding amounts for optional life insurance using the following.

       •      For Option A: Determined the employee’s age group using the age groups provided for
              Option A in the FEGLI Program Booklet. The withholding amount was the rate listed in
              the FEGLI Program Booklet for that age group. Compared to amount withheld. Report
              any differences and obtain management’s explanation of the differences.

    Results

    No exceptions noted.

       •      For Option B: Inspected the SF-2817 to determine the number of multiples chosen for
              Option B. Determined the employee’s age group using the age groups provided for
              Option B in the FEGLI Program Booklet. Rounded the employee’s annual rate of basic
              pay up to the next 1,000, divided by 1,000, and multiplied by the rate for the age group.
              Multiplied this amount by the number of multiples chosen. Compared to amount
              withheld. Report any differences and obtain management’s explanation of the
              differences.

    Results

    No exceptions noted.

       •      For Option C: Inspected the SF-2817 to determine the number of multiples chosen for
              Option C. Determined the employee’s age group using the age groups provided for
              Option C in the FEGLI Program Booklet. Multiplied the rate for the age group by the
              number of multiples chosen. Compared to amount withheld. Report any differences and
              obtain management’s explanation of the differences.

    Results

    No exceptions noted.

USDA/OIG-A/11401-29-FM                                                                         Page 6
Exhibit A – Procedures Performed and Results

3. Randomly selected a total of 10 employees who had no health benefits withholdings from the
   payroll information corresponding to the three RITS submissions selected for testing above.

   a.    Requested SF-2809s covering the pay periods in the RITS submissions chosen, either in
         electronic or hard copy format, from the selected employees’ OPFs or, if applicable,
         requested that the agency personnel office obtain a report from the agency’s automated
         system that allowed participants to change benefits for any health benefit transactions in that
         system for the individuals selected. Hard copies could be originals or certified copies.
         Inspected the documentation to determine that health benefits coverage was not elected. This
         could be determined in the following ways:

         • Absence of an SF-2809 in the OPF and no election of coverage made through the agency’s
           automated system that allows participants to change benefits;

         • an SF-2809 in the OPF with section E checked (indicating cancellation of coverage) and no
           later election of coverage through the agency’s automated system that allows participants
           to change benefits; or

         • cancellation of coverage through the agency’s automated system that allows participants to
           change benefits and no later election of coverage with an SF-2809.

   Report any exceptions.

   Results

   Seven of the forms were not located by the personnel officers (five at the Agency for International
   Development, and one each at Department of the Treasury, and Homeland Security). No other
   exceptions were noted.


4. Randomly selected a total of 10 employees who had no life insurance withholdings from the
   payroll information corresponding to the three RITS submissions selected for testing above.
   Requested the SF-2817s covering the pay periods in the RITS submission chosen, either in
   electronic or hard copy format, from the selected employees’ OPFs. Hard copies could be originals
   or certified copies. Inspected the SF-2817 to determine that the employee waived or canceled
   Basic Life Insurance coverage. Report any exceptions.

   Results

   Four of the forms were not located by the personnel officers (two at the Agency for International
   Development and one each at the Department of Housing and Urban Development and
   Agriculture). No other exceptions were noted.



USDA/OIG-A/11401-29-FM                                                                         Page 7
Exhibit A – Procedures Performed and Results
5. Calculated the headcount reflected on the September 2007 and March 2008 Supplemental
   Semiannual Headcount Report selected, as follows.

   a.    Obtained existing payroll information (from step 1.a) supporting the selected Supplemental
         Semiannual Headcount Report. If existing payroll data was not available, had a payroll
         system query performed that summarized detailed payroll data supporting the Supplemental
         Semiannual Headcount Report, as follows.

         •   Benefit category
         •   Dollar amount of withholdings and contributions
         •   Number enrolled (deductions made/no deductions)
         •   Central Personnel Data File Code
         •   Aggregate base salary.

   b.    Recalculated the headcount reflected on the Supplemental Semiannual Headcount Report. If
         an electronic file was not available, a suggested method of recalculating the headcount was
         as follows: (1) estimated the number of employees per payroll register page by counting the
         employees listed on several pages, (2) counted the number of pages in the payroll register,
         and (3) multiplied the number of employees per page by the number of pages, or count (using
         a computer audit routine) the number of employees on the payroll data file for the period.

   c.    Compared the results of payroll information from step 5.a with the calculated headcount from
         step 5.b to the information shown on the respective Supplemental Semiannual Headcount
         Report.

   d.    Report any differences (i.e., gross rather than net) greater than 2 percent between the
         headcount reporting on each respective agency’s headcount report and the payroll
         information from step 5.a and the calculated headcount from step 5.b. Obtain from
         management a management official name, telephone number, an email address, and an
         explanation for the differences.

   Results

   There were no differences greater than 2 percent.

6. Calculated employer and employee contributions for retirement, health benefits, and life insurance.

   a.    Calculated retirement withholdings and contributions for the three pay periods selected, as
         follows.

         i. Multiplied the CSRS and FERS payroll base by the withholding and employer
            contribution rates required by law.




USDA/OIG-A/11401-29-FM                                                                        Page 8
Exhibit A – Procedures Performed and Results
       ii. Compared the calculated totals with related amounts shown on the RITS submissions.
           Report any variances and obtain management’s explanation of the variances (i.e., gross
           rather than net) between the calculated amounts and the amounts reported on the RITS
           submissions greater than 5 percent of the amounts on the RITS submission.

  Results

  There were no differences greater than 5 percent.

  b.   Calculated employee withholdings and employer contributions for health benefits for the
       three pay periods selected, as follows.

        i. Multiplied the number of employees enrolled in each health benefits plan and plan option
           by the employee withholdings and employer contributions for the plan and option.

       ii. Summed the totals in step 6.b.i and compared the result with the health benefit
           withholding and contribution amounts shown on the RITS submissions. Report any
           variances and obtain management’s explanation of the variances (i.e., gross rather than
           net) between the calculated amounts and the amounts reported on the RITS submissions
           greater than 5 percent of the amounts on the RITS submission.

  Results

  There were no differences greater than 5 percent.

  c.   Calculated the Basic Life Insurance employee withholdings and employer contributions for
       the three pay periods selected, as follows.

        i. Had agency payroll office personnel perform a payroll system query to determine the
           total number of employees with Basic Life Insurance coverage and the aggregate annual
           basic pay for all employees with Basic Life Insurance.

       ii. For employee withholdings: Added the product of 2,000 times the number of employees
           with Basic Life Insurance coverage to the aggregate annual basic pay for all employees
           selected. This represented the estimated total Basic Life Insurance coverage.

            Divided this total by 1,000 and multiplied by the rate required by law. The Life Insurance
            rates could be found in the FEGLI Program Booklet on OPM’s website.

       iii. Compared the result in step 6c.ii to the withholdings for Basic Life Insurance coverage
            reported on the RITS submission. Report any difference and obtain management’s
            explanation of the difference (i.e., gross rather than net) between the estimate and the
            amount of withholdings reported on the RITS submission greater than 5 percent of the
            amounts on the RITS submission.


USDA/OIG-A/11401-29-FM                                                                        Page 9
Exhibit A – Procedures Performed and Results

  Results

  There were no differences greater than 5 percent.

       iv. For agency contributions: Divided the results of step 6.c.ii by two – this approximates
           agency contributions, which are one-half of employee withholdings. Compared this result
           to the amount reported on the RITS submission and report any differences and obtain
           management’s explanation of the differences (i.e., gross rather than net) between the
           estimate and the amount reported on the RITS submission greater than 5 percent of the
           amounts on the RITS submission.

  Results

  There were no differences greater than 5 percent.

  d.   Calculated the Option A, Option B, and Option C Life Insurance coverage withholdings for
       the three pay periods selected by using detail payroll reports used to reconcile the RITS
       reports in step 1. In addition to the information used for step 1, the reports should have
       included the employee’s date of birth, annual rate of basic pay, and number of multiples
       selected for Option B and C. Note: While similar to step 2.j, the calculation here was for the
       entire amount reported on the RITS submissions for the three pay periods selected, as
       opposed to the sample of 25 employees in step 2.j.

        i. Multiplied the number of employees in each age group by the appropriate rate for Option
           A in accordance with the rates for age groups provided in the FEGLI Program Booklet.

       ii. Compared the result in step 6.d.i to the amounts for Option A reported on the RITS
           submissions. Report any differences (i.e., gross rather than net) greater than 2 percent of
           the amounts on the RITS submission.

  Results

  There were no differences greater than 2 percent.

       iii. Divided the reports for Option B and Option C insurance into the age groups shown in
            the FEGLI Program Booklet. For Option B, rounded the employee’s annual rate of basic
            pay up to the next 1,000, divided by 1,000, multiplied by the rate for the age group,
            multiplied this by the number of multiples.

            (Annual rate of basic pay (rounded up)/1,000*rate*multiples.)

            For Option C, multiplied the rate for the age group by the number of multiples chosen for
            each employee.


USDA/OIG-A/11401-29-FM                                                                      Page 10
Exhibit A – Procedures Performed and Results

      iv. Compared the result in step 6.d.iii to the amounts for Option B and Option C,
          respectively, reported on the RITS submissions. Report any differences and obtain
          management’s explanation of the differences (i.e., gross rather than net) greater than 2
          percent of the amounts on the RITS submission for Option B and/or Option C.

  Results

  There were no differences greater than 2 percent.




USDA/OIG-A/11401-29-FM                                                                   Page 11
